                               NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230
      wp..$,
   ..&. ,.,.+.A,
  -4jnst;f
   &&"
        q   " ,''



    *...gr&,
      I""
    OFFICE OF                         September 2 1,2000
INSPECTORGENERAL


  TO:               The File                                                             !

  FROM:             S
                                       &




  SUBJECT:          Case Closeout, 1-00030004                                        .
                                                                                    'I




      appeared                      As the account holder on two government VISA
      purchase cards,           was authorized to purchase items for his division to include
                                     computer memory and accessories.,               1

  2. OIG investigated the allegation. The investigation reveal;d t h a l p u n h a s e d
     over $10,000 in personal goods and services to include sports equipment,
     memberships to Internet sites, and the services of a law
     Office, Eastern District of Virginia prosecuted the case.
     count of Conversion of U. S . Government property.                          was
     sentenced to 3 years of probation, and ordered to
     amount of $10,475.

  3. This investigation is closed.
